     Management Advisory Report




   Single Audit of the Hawaii
Department of Human Services for
 the Fiscal Year Ended June 30,
              2011




       A-77-13-00001| January 2013
Summary of Single Audit of the Hawaii Department of Human
Services for the Fiscal Year Ended June 30, 2011
A-77-13-00001
January 2013

Objective                                Findings

To report internal control weaknesses,   The single audit reported that the hours DDB submitted on Form
noncompliance issues, and                SSA-4514, Time Reports of Personnel Service for Disability
unallowable costs identified in the      Determination Services, did not reconcile to supporting
single audit to SSA for resolution       documentation.
action.
                                         Recommendations
Background
                                         We recommend that SSA verify that DDB has taken appropriate
N&K CPAs, Inc., performed the single     action to ensure the accuracy of the Form SSA-4514.
audit of the State of Hawaii. SSA is
responsible for resolving single audit
findings related to its Disability
Insurance program. The Department
of Human Services is the Hawaii
Disability Determination Branch
(DDB) parent agency.
MEMORANDUM

Date:      January 25, 2013                                                            Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the Hawaii Department of Human Services for the Fiscal Year Ended June 30,
           2011 (A-77-13-00001)

           This report presents the Social Security Administration’s (SSA) portion of the Single Audit of
           the Hawaii Department of Human Services for the State Fiscal Year ended June 30, 2011. 1 Our
           objective was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           N&K CPAs, Inc., performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by N&K CPAs, Inc., and the HHS reviews. We
           conducted our review in accordance with the Council of the Inspectors General on Integrity and
           Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Hawaii Disability Determination Branch (DDB) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDB is reimbursed for
           100 percent of allowable costs. The Department of Human Services (DHS) is the Hawaii DDB’s
           parent agency.




           1
            Office of the Auditor, Financial Audit of the Department of Human Services State of Hawaii, Fiscal Year Ended
           June 30, 2011. http://www.state.hi.us/auditor/Reports/2011_Audit/DHS_2011.pdf (last viewed January 8, 2013).
Page 2 - Gary S. Hatcher

The single audit reported that the hours DDB submitted on Form SSA-4514, Time Reports of
Personnel Service for Disability Determination Services, did not reconcile to supporting
documentation. 2 The corrective action plan indicates DDB implemented a reconciliation and
review process for the Form SSA-4514 and its supporting documentation.

We recommend that SSA verify that DDB has taken appropriate action to ensure the accuracy of
the Form SSA-4514.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                             Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Ibid., finding 2011-08.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
